PENSION BENEFIT GUARANTY CORPORATION




  SEMIANNUAL REPORT
   TO THE CONGRESS




  OFFICE OF INSPECTOR GENERAL


     APRIL 1, 1999 - SEPTEMBER 30, 1999
                                                                           Office of Inspector General

                                                                             October 31, 1999



The Honorable Alexis Herman
Chairman, PBGC Board of Directors

       It is my pleasure to submit this twenty-first semiannual report to the Congress.
This report summarizes the major activities and accomplishments of the Office of Inspector
General (OIG) for the six-month period ending September 30, 1999. Our accomplishments
were made possible by the dedicated efforts of a committed and professional staff.

        Our work this reporting period has resulted in significant operational benefit to
PBGC. Our efforts were directed to increased economy, efficiency, and quality of PBGC's
operations and combating actual or potential occurrences of waste, fraud, and misuse of
Government funds. My office issued two (2) reports in the audit area, one relating to
sensitive payments to PBGC executives and the financial statement management letter. We
continue to conduct special reviews of particular PBGC issues at the request of two
congressional committees, the Senate Special Committee on Aging chaired by Senator
Grassley, and the Small Business Committee chaired by Senator Bond.

        In the investigative area, we opened fourteen (14) and closed ten (10) investigations.
The most significant investigation we closed this period involved travel and ethics
violations by a senior PBGC official. In two of the pension fraud cases we worked this
period, one pension plan participant pled guilty to defrauding the PBGC of more than
$35,000 by filing an altered birth certificate, and another participant’s son was indicted for
taking actions to continue and then steal his deceased father’s pension benefits.

        The results achieved by the OIG were enhanced by the support of PBGC’s Executive
Director, managers, employees, and the Congress. I look forward to continuing the
productive professional working relationship as we strive to maintain the highest levels of
integrity and quality in the Corporation's programs and operations, and helping PBGC meet
its important challenges.


                                             Sincerely,



                                             Wayne Robert Poll
                                             Inspector General


Enclosure
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                 PENSION BENEFIT GUARANTY CORPORATION




EXECUTIVE SUMMARY
This is the twenty-first semiannual report to the Congress summarizing the activities and
accomplishments of the Pension Benefit Guaranty Corporation (PBGC) Office of Inspector
General (OIG) for the period April 1, 1999 through September 30, 1999. Our efforts were
directed toward performing audits, inspections, and evaluations of the Corporation's programs
and operations, conducting several large and complex investigations, and providing technical
assistance and advice on Corporate programs.

In the audit area, we continue to work with two congressional committees, the Senate Special
Committee on Aging and the Senate Small Business Committee, to respond to specific requests
concerning PBGC operations. We also issued two (2) reports:

       • audit of sensitive payments made to senior PBGC officials related to travel,
         honoraria, gifts, and executive pay (see page 2);

       • management letter report citing control weaknesses found during the fiscal
         year 1998 Financial Statement audit (see page 2);

In the investigative area, we opened fourteen (14) new investigative cases during the reporting
period, and closed ten (10) cases.    The most significant case we closed this period involved
travel and ethics violations (see page 9). In addition, we continue to vigorously pursue cases of
pension fraud. During this period, a pension plan participant pled guilty to defrauding PBGC
of more than $35,000 by altering his birth certificate, and a participant’s son was indicted for
taking action to continue and then steal his deceased father’s pension payments from PBGC.

This report also contains our annual update of the OIG’s strategic planning for the coming
year.




                                                i
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                                     PENSION BENEFIT GUARANTY CORPORATION




TABLE OF CONTENTS
               LETTER TO THE CHAIRMAN

               EXECUTIVE SUMMARY ....................................................................                i

               TABLE OF CONTENTS.......................................................................              ii

               LIST OF TABLES ................................................................................       iii

               INTRODUCTION..................................................................................        1

                         The Pension Benefit Guaranty Corporation
                         The Office of Inspector General

               AUDIT ACTIVITIES ............................................................................         2

                         Overview
                         Audits and Evaluations
                         Audit Follow-up and Resolution
                         Access to Information
                         PBGC Management - Inspector General Disagreements

               INVESTIGATORY ACTIVITIES .........................................................                    8

                         Overview
                         Activity This Period
                         Significant Investigations

               OTHER OFFICE OF INSPECTOR GENERAL ACTIVITIES .............                                            11

                         Review of Proposed Statutory and Regulatory Changes
                         Consultation With Agency
                         Consultation With Congress
                         Liaison With the United States General Accounting Office

               STRATEGIC PLANNING ....................................................................               12

                           Risk Areas and OIG Activities

               GLOSSARY...........................................................................................   18




                                                              ii
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                      PENSION BENEFIT GUARANTY CORPORATION




LIST OF TABLES
       TABLE 1 - INSPECTOR GENERAL ISSUED REPORTS .........................................      5

       TABLE 2 - REPORTS ISSUED WITH QUESTIONED COSTS ...............................            6

       TABLE 3 - REPORTS ISSUED WITH RECOMMENDATIONS
                   THAT FUNDS BE PUT TO BETTER USE .........................................     7

       TABLE 4 - STATISTICAL TABLES OF INVESTIGATIONS ...................................        10

       TABLE 5 - CROSS-REFERENCE TO REPORTING REQUIREMENTS
                   OF THE INSPECTOR GENERAL ACT...............................................   17




                                                   iii
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL          PENSION BENEFIT GUARANTY CORPORATION



INTRODUCTION
THE PENSION BENEFIT GUARANTY CORPORATION
       The Pension Benefit Guaranty Corporation (PBGC) was established under Title
       IV of the Employee Retirement Income Security Act of 1974 (ERISA), as
       amended, 5 U.S.C. §§ 1301-1461, as a self-financing, wholly-owned Federal
       Government Corporation to administer the pension insurance program. ERISA
       requires that PBGC (1) encourage the continuation and maintenance of
       voluntary private pension plans; (2) provide for the timely and uninterrupted
       payment of pension benefits to participants and beneficiaries; and (3) maintain
       premiums at the lowest level consistent with carrying out PBGC's obligations.

       For about 42 million Americans, the PBGC provides assurance that their
       retirement benefits are safe now and for the future. The PBGC protects the
       pensions of participants in certain defined benefit pension plans, i.e., plans that
       promise to pay definitely determinable retirement benefits. Such defined benefit
       pension plans may be sponsored individually or jointly by employers and by
       unions. Currently, there are approximately 209,000 participants receiving
       benefit payments from PBGC. Additionally, in its fiscal year 1998 Financial
       Statement, the PBGC reported that it has assets of about $18.4 billion and
       liabilities of $13 billion.


THE OFFICE OF INSPECTOR GENERAL

       One of the strategic goals of the OIG is to assist the PBGC in operating more
       efficiently and effectively by identifying ways to improve the PBGC's programs.
       To accomplish this goal, the OIG conducts agency audits, inspections, and
       investigations, and makes recommendations to PBGC management. In addition,
       the OIG is required statutorily to inform the agency head of fraud and other
       serious problems, abuses, and deficiencies relating to the programs and
       operations administered or financed by the PBGC, recommend corrective action
       concerning such problems, and report on the progress made in implementing
       corrective actions.

       The OIG staff consists of twelve (12) employees, of which two are investigators.
       We continue to accomplish our investigative program through the use of
       contract investigators, though this is limiting because conducting criminal
       investigations is an inherently governmental function. We have been given a
       position to hire an EDP auditor, which we anticipate posting soon.

       The Chief Financial Officers Act (CFO Act) requires that a government
       corporation's financial statements be audited by the Inspector General, unless
       preempted by GAO. The OIG contracted for an Independent Public Accountant
       (IPA) to perform the audit of the Corporation’s FY 1998 financial statements.




                                             1
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL         PENSION BENEFIT GUARANTY CORPORATION



AUDIT ACTIVITIES
OVERVIEW
       The OIG provides independent analyses to management on a full range of
       PBGC's operations including programs, activities, functions, and funds. The
       OIG has full discretion in establishing audit objectives, plans, and priorities.
       During this reporting period, the OIG issued four (4) reports (see TABLE 1) to
       help PBGC reduce costs and strengthen management controls. Below is a
       summary of those reports. Our audits comply with the United States General
       Accounting Office’s Government Auditing Standards, while the inspections
       comply with quality standards for inspections published by the President's
       Council on Integrity and Efficiency.


AUDITS AND EVALUATIONS

       AUDIT OF SENSITIVE PAYMENTS
       FOR FISCAL YEAR 1998 (99-4/23136)

       The OIG performed an audit of Sensitive Payments made to senior level officials
       in FY 1998. Sensitive payments encompass a wide range of executive functions
       including compensation, travel, official entertainment funds, unvouchered
       expenditures, consulting services, speaking honoraria, gifts, and executive
       perquisites. Sensitive payments issues are addressed in various laws,
       regulations, policies and procedures, and codes of ethics and conduct for
       government employees.

       We found that control problems identified in prior audits continue to exist. Our
       review disclosed that travel vouchers were not submitted timely as required by
       PBGC policy. In addition, we found that, with respect to these senior executives,
       PBGC was inconsistent in adhering to policies and procedures that require
       notification of all PBGC employees of their overdue travel vouchers.

       FISCAL YEAR 1998 FINANCIAL STATEMENT –
       MANAGEMENT LETTER (99-8/23132-3)

       The OIG engaged PricewaterhouseCoopers, LLP (PwC) to audit PBGC’s financial
       statements of the Single-Employer Fund and the Multiemployer Fund for the
       fiscal years (FY) ended September 30, 1998 and 1997. Last reporting period, the
       OIG issued opinions on the financial statements and management’s assertion
       concerning the system of internal control, and a report on compliance with laws
       and regulations (see Audit Report 99-7/23132-2, discussed in our previous
       Semiannual Report to Congress).

       During this period, we issued a follow-on management letter report with findings
       concerning several control conditions, including the need to:

       •   Improve controls over financial reporting;
       •   Improve compliance with PBGC’s own policies and procedures;
       •   Improve controls over the PRISM database application and update the
           Corporation’s policies and procedures for this new application; and




                                             2
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL         PENSION BENEFIT GUARANTY CORPORATION

       •   Establish a control environment improving monitoring capabilities for
           segregation of duties concerns.


       CONGRESSIONAL INQUIRIES

       The OIG responded to several requests presented by Senator Christopher Bond,
       Chairman of Small Business Committee, and Senator Charles Grassley,
       Chairman (Committees). Among the most significant issues we were asked:

       •   to review PBGC’s response to the Committees regarding questions
           concerning the Atlanta field office and a former contractor employee
           responsible for implementing this office’s operations. The OIG has been
           asked to obtain and analyze supporting documentation for certain of PBGC’s
           statements.

       •   to review a benefit overpayment to an annuitant made by PBGC. The OIG
           obtained the payment data and discussed with PBGC the operational
           conditions that allowed this transaction to be processed and the related
           corrective actions.

       •   to determine if PBGC reconciled benefit payments.

       •   to determine if PBGC was paying the professional membership fees for its
           employees, such as the dues to the American Bar Association and the
           American Institute of Certified Public Accountants.

       The results of these reviews were orally provided to the Committees. In addition,
       we reported monthly to Congressman Hoekstra on PBGC’s activities to ensure
       that its mission-critical systems are Y2K compliant.


AUDIT FOLLOW-UP AND RESOLUTION
       The audit follow-up system at PBGC is integral to effective management and is a
       shared responsibility of PBGC management and the OIG. The OIG has
       established an audit follow-up system to document management's actions and
       assure prompt resolution of audit recommendations. Moreover, this OIG system
       provides for a record of actions taken by PBGC management on OIG and GAO
       recommendations.

       The Office of Management and Budget (OMB) Circular A-50 requires that audit
       recommendations be resolved within six (6) months of issuance. The OMB
       guidance provides that audit recommendations are resolved when Agency
       management and the OIG reach agreement on firm plans of action to correct
       reported weaknesses.        Resolution, however, does not mean an audit
       recommendation is closed. The OIG closes audit recommendations only when
       corrective actions have been completed by the Agency.

       The OIG issued the Semiannual Listing of Audit Recommendations (99-11/32093)
       which contained eighty (80) audit recommendations of which fifty-five (55) were
       outstanding audit recommendations from prior reporting periods. Of these open
       audit recommendations, our Semiannual Report on Follow-up of Audit
       R e c o m m e n d a t i o n s (99-12/32094) reported seventeen (17) audit
       recommendations that agency management represented as closed and in which
       the OIG concurred. Sixty-three (63) audit recommendations remained open on
       September 30, 1999.




                                             3
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL       PENSION BENEFIT GUARANTY CORPORATION




                                             4
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL         PENSION BENEFIT GUARANTY CORPORATION


ACCESS TO INFORMATION
       Under the Act, the Inspector General is to have unfettered access to all agency
       records, information, or assistance when engaged in an investigation or audit.
       Whenever access to requested records, information or assistance is
       unreasonably refused or not provided, the Inspector General must promptly
       report the denial to the Agency Head. During this six-month reporting period,
       the Inspector General’s access to information was not restricted.


PBGC MANAGEMENT - INSPECTOR GENERAL
DISAGREEMENTS
       Semiannually, the OIG must report the status of all unresolved audit reports
       that are more than six months old to the Agency Head. These reports include:
       (1) reason(s) for unresolved reports and a timetable for their resolution; (2)
       actions taken or proposed on all unresolved reports or recommendations; and (3)
       the age of unresolved recommendations. For this reporting period, there were
       no unresolved audit reports in which PBGC management decisions are pending.

       However, during this reporting period, PBGC disagreed with a recommendation
       contained in the Fiscal Year 1998 Financial Statement – Management Letter (99-
       8/23132-3). PBGC management was provided a draft copy of this report for
       review and comment. We met with PBGC officials several times to discuss the
       impact of the report’s findings and recommendations and provide greater detail
       from our fieldwork.

       PBGC management commented on the Report and concurred “with its
       recommendations except for one item.” PBGC disagreed with a recommendation
       which states that PBGC should “modify existing Insurance Operations
       Department (IOD) procedures to require retention of source documentation
       generated as a result of the participant data audits and used to calculate benefit
       payments and value the PVFB [Present Value of Future Benefits] liability.”

       In their response, PBGC stated that current IOD procedures indeed “require that
       source documentation is to be maintained to support participant data audits,
       the calculation of benefit payments, and the valuation of the Present Value of
       Future Benefits (PVFB) liability.” However, we found that the IOD Manual
       Section 12.5, “Perform Source Documentation Audit,” clearly instructs IOD
       personnel to retain source documentation obtained from prior sponsors of
       terminated plans only for a sample of participants, rather than for all
       participants. This documentation consists of several sample files for each
       category of participants and is used to analyze the data gathered in the field.
       IOD’s collection and retention of only a sample of participant data may not be
       adequate in the future to provide a proper audit trail to support benefit
       calculations and the PVFB liability.
       Lack of proper audit trails has been an historical issue in PBGC’s financial
       statements as a whole. In addition, throughout the IOD Manual a completeness
       of the participants’ files is emphasized and encouraged.                Complete
       documentation is the cornerstone for providing a proper audit trail to support
       data elements used to calculate benefits, and in turn, the PVFB liability. Failure
       to capture full and complete participant data could ultimately affect the overall
       future financial statement opinions, including internal controls.




                                             5
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL            PENSION BENEFIT GUARANTY CORPORATION




                                         TABLE 1

                       INSPECTOR GENERAL ISSUED REPORTS
                          For The Six-month Period Ending
                               SEPTEMBER 30, 1999

                                                     DOLLAR       DOLLAR        DOLLAR
                                                    VALUE OF     VALUE OF      VALUE OF
REPORT                                   DATE      QUESTIONED     BETTER      UNSUPPORTED
NUMBER           REPORT TITLE           ISSUED       COSTS      USED FUNDS       COSTS

Audits

99-4/     Audit of Sensitive            6/7/99         -0-           -0-           -0-
23136     Payments for Fiscal Year
          1998
99-8/     Fiscal Year 1998 Financial    9/23/99        -0-           -0-           -0-
23132-3   Statement Audit –
          Management Letter


Evaluations

99-11/    Semiannual Listing of Audit    7/31/99        -0-           -0-          -0-
32093     Recommendations
99-12/    Semiannual Report on           9/30/99        -0-           -0-          -0-
32094     Follow-up of Audit
          Recommendations




                                             6
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                            PENSION BENEFIT GUARANTY CORPORATION




                                                     TABLE 2 *

                           REPORTS ISSUED WITH QUESTIONED COSTS
                               For The Six-month Period Ending
                                    SEPTEMBER 30, 1999


                                                                 NUMBER
                                                                     OF            QUESTIONED   UNSUPPORTED
                                                                 REPORTS             COSTS         COSTS

 A.    For which no management decision has
       been made by the commencement of the
       reporting period                                              0                   -0-        -0-

 B.    Which were issued during the reporting
       period                                                        0                   -0-        -0-

       Subtotal ( Add A & B)                                         0                   -0-        -0-

 C.    For which a management decision was
       made during the reporting period                              0                   -0-        -0-

       (i)       dollar value of disallowed costs                    0                   -0-        -0-

       (ii)      dollar value of costs not
                 disallowed                                          0                   -0-       - 0-

 D.    For which no management decision has
       been made by the end of the reporting
       period                                                        0                   -0-        -0-

 E.    Reports for which no management
       decision was made within six months of
       issuance                                                      0                   -0-        -0-




* This statistical information is required by the Inspector General Act of 1978, as amended.




                                                            7
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                             PENSION BENEFIT GUARANTY CORPORATION




                                                     TABLE 3 *

                           REPORTS ISSUED WITH RECOMMENDATIONS
                              THAT FUNDS BE PUT TO BETTER USE
                                For The Six-month Period Ending
                                     SEPTEMBER 30, 1999


                                                                                      NUMBER
                                                                                         OF      DOLLAR
                                                                                     REPORTS     VALUE

 A.    For which no management decision has been made by the
       commencement of the reporting period                                               0        -0-

 B.    Which were issued during the reporting period                                      0        -0-

       Subtotal ( Add A & B)                                                              0        -0-

 C.    For which a management decision was made during the
       reporting period                                                                   0        -0-

       (i)         dollar value of recommendations that were agreed
                   to by management                                                       0        -0-

              --   based on proposed management action                                    0        -0-

              --   based on proposed legislative action                                   0        -0-

       (ii)        dollar value of recommendations that were not
                   agreed to by management                                                0        -0-

 D.    For which no management decision has been made by the
       end of the reporting period                                                        0        -0-

       Reports for which no management decision was made
       within six months of issuance                                                      0        -0-




* This statistical information is required by the Inspector General Act of 1978, as amended.




                                                            8
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL           PENSION BENEFIT GUARANTY CORPORATION



 INVESTIGATORY ACTIVITIES
OVERVIEW
       The Inspector General is authorized to receive and investigate complaints from
       PBGC employees, the public, and other sources concerning violations of law,
       rule, or regulation; mismanagement; gross waste of funds; abuse of authority; or
       a substantial and specific danger to the public health and safety. Individuals
       may disclose information or make complaints to the Inspector General through
       the OIG "Hotline." (See announcement on back cover page.) The Inspector
       General has a policy to protect the legal rights of whistleblowers and
       complainants. At all times, the Inspector General takes reasonable precautions
       not to disclose the identity of the complainant without that person's consent.

       When we receive an allegation, we review it to determine its sensitivity and need
       for immediate OIG investigation, whether it has a lower priority, or whether it
       can be referred to the agency for review and corrective action. Allegations
       designated as priority receive immediate attention.            Generally, these
       investigations use more time and resources, often requiring a team approach.
       To meet these challenges, the OIG has undertaken many strategies to
       responsibly investigate allegations that are brought to us, including hiring
       former federal investigators as contractors. Even with these additional contract
       resources, we have had to cease investigation activities and close some cases
       administratively. Though we have systematically reduced our investigative
       caseload, our limited investigative staff causes an inability to investigate
       allegations timely, which is unacceptable to us.

ACTIVITY THIS PERIOD
       The OIG received 14 complaints or allegations, and closed 10 investigative cases
       during the reporting period. As of September 30, 1999, 48 cases remain open
       (see Table 4 for investigative program statistics).

       OIG HOTLINE
       The OIG operates a separate "1-800" hotline telephone number and a post office
       box. The Hotline telephone is answered by an investigative staff assistant for a
       two-hour period, Monday through Friday; at all other times there is a message
       that provides information about the Hotline service.

       For the period April 1, 1998 through September 30, 1999, we received a total of
       6 Hotline inquiries. Five of the six contacts were first-time inquiries relating to
       pension benefit questions, which were referred to the agency for action. The
       sixth contact we were able to answer their question. We did not open any cases
       from our Hotline contacts this period.




                                             9
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL         PENSION BENEFIT GUARANTY CORPORATION


       SIGNIFICANT INVESTIGATIONS

       PENSION FRAUD CASES PROSECUTED

       During this period, we had two investigations that involved fraudulent receipt of
       pension benefit payments issued by PBGC. In one, a participant pled guilty to
       altering his birth certificate so he could receive more than $35,000 in pension
       benefits from PBGC 10 years before he was entitled to receive any benefit. He is
       awaiting sentencing. In another case, a pension plan participant’s son was
       indicted by a federal grand jury of theft of more than $11,000 for taking steps to
       have his deceased father’s pension benefits continue to be paid by PBGC and
       then taking the money. Several other cases were on-going at the close of the
       period.

       TRAVEL AND ETHICS VIOLATIONS

       From another investigation, we obtained evidence that a PBGC Executive may
       have engaged in travel related improprieties, including improper acceptance of
       entertainment and gratuities. This investigation required extensive document
       review for multiple years of government travel, and interviews of out-of-state
       contractors, as well as federal employees. Because the offenses involved
       falsification of government documents and acceptance of gratuities, which are
       violations of criminal statutes, this matter was referred to the U.S. Attorney’s
       Office for possible prosecution. After careful consideration and review, the U.S.
       Attorney’s Office referred the matter back to the OIG for pursuit of
       administrative action in lieu of prosecution.

       Upon interviewing the subject and bringing our review of the travel documents
       current, we found that the subject had made multiple false travel statements
       and claims, accepted gratuities from contractors who were prohibited sources,
       and failed to report the acceptance of gratuities on the financial disclosure
       statement. We found no evidence of a violation of the criminal bribery statute.
       In a report, we referred the matter to the Executive Director for disciplinary and
       corrective action.




                                             10
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                             PENSION BENEFIT GUARANTY CORPORATION


                                                       TABLE 4

                             STATISTICAL TABLES OF INVESTIGATIONS
                                 For The Six-month Period Ending
                                      SEPTEMBER 3O, 1999



CASE LOAD

                    Pending beginning of period                                                    44
                    Opened this period**                                                           14
                    Closed this period                                                             10
                    Pending end of period ***                                                      48


WRONGDOING ALLEGED (CASES OPENED)

                    Fraud, Waste & Abuse                                                            6
                    Wrong Doing                                                                     2
                    Theft                                                                           4
                    Improprieties Relating to Pension Benefits                                      2
                    Proactive                                                                       0


RESULTS OF CASES CLOSED

                    Allegation disproved or not substantiated                                       2
                    Referred to agency for corrective action                                        2
                    Prosecutions & Civil Settlements                                                0
                       Monetary recovery
                    Prosecution declined; referred for agency                                       1
                        disciplinary action
                    Administrative Closings                                                         5



HOTLINE AND MAIL INQUIRIES

                    Received this period                                                            6

                              First time caller referrals to agency                       5
                              Mail referrals to agency                                    0
                              OIG Customer Assistance                                     1
                              Cases opened                                                0




** Of the fourteen new cases opened this period, none resulted from Hotline and mail inquiries.
*** Forty of the forty-eight investigative cases that are open are from prior reporting periods.




                                                            11
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL         PENSION BENEFIT GUARANTY CORPORATION



OTHER OFFICE OF INSPECTOR
GENERAL ACTIVITIES
REVIEW OF PROPOSED STATUTORY
AND REGULATORY CHANGES

       To comply with the IG Act, the OIG Legal Counsel is notified by the Office of the
       General Counsel when the agency is proposing legislative and regulatory
       changes. During this period, the OIG did not have any comments on regulations
       or statutes proposed by the agency. However, we did comment on many
       proposed statutory changes to the Inspectors General Act of 1978, as amended,
       and other newly proposed statutes.


OIG AND AGENCY CONSULTATION

       The OIG engaged in several activities this period that included coordination with
       agency officials to make PBGC a better place to work.

       •   We continue to participate on a multi-department team to assess PBGC’s
           compliance with Year 2000 issues.

       •   We provided the Chief Financial Officer with technical assistance and advice
           regarding certain accounting and financial issues.

CONSULTATION WITH CONGRESS

       The OIG continues to meet with the Senate Special Committee on Aging and the
       Senate Small Business Committee to answer questions about agency operations.
       We also provide a monthly status to Congress on the agency’s Y2K efforts.

LIAISON WITH THE UNITED STATES
GENERAL ACCOUNTING OFFICE
       The OIG maintains close liaison with GAO. Listed below are the GAO on-going
       review efforts at PBGC as of September 30, 1999.

       •   Review of PBGC’s use of contract staff to carry out its responsibilities and
           the processes associated with the selection and oversight of such staff; and

       •   Study of cash balance plans.




                                             12
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL          PENSION BENEFIT GUARANTY CORPORATION



STRATEGIC PLANNING
       The Office of Inspector General (OIG) uses strategic planning techniques to
       identify functional risks faced by the Corporation. These techniques allow us to
       maximize our effectiveness with limited resources by focusing on those areas
       most critical to organizational success. This planning is performed at two levels:
       first, by identifying the most critical functional areas; and second, by examining
       specific risks affecting Corporate operations. This planning effort is then used to
       select areas for specific audits and inspections. The OIG has identified five risk
       areas using our strategic planning process. Accordingly, these risk areas, listed
       and discussed below, have been addressed during the past year and will
       continue to be addressed by future audits or investigations. When practicable,
       we have designed audit and evaluation projects to include multiple risk areas.

       •   Procurement of and Performance by Contractors
       •   Pension Liabilities
       •   Systems Integration
       •   Integrity of Payment and Premium Systems
       •   Asset Management

       This report summarizes activities conducted during FY 1999 (October 1, 1998
       through September 30, 1999) and references work reported in this semiannual
       report and the prior report covering the period from October 1, 1998 - March 31,
       1999.

RISK AREAS AND OIG ACTIVITIES

       PROCUREMENT OF AND ACTIVITIES
       BY CONTRACTORS
       PBGC currently uses a large number of contractors throughout the Corporation,
       which poses unique risks permeating virtually every aspect of PBGC's business.
       It is essential that proper controls be in place and functioning to ensure
       procurement policies are followed and contractor performance is properly
       monitored.

       FY 1999 Activity.

       •   During the audit of PBGC’s financial statements (see OIG Report 98-
           3/23126-2), we reviewed selected contractor performance by testing
           compliance with PBGC’s policies and procedures.

       •   The OIG initiated a quality review of the work performed by contractors
           engaged to assist PBGC in examining premium payer compliance with
           applicable statutory obligations and reporting requirements.

       Projected FY 2000 Activity.

       •   We plan to assess PBGC’s procurement function to identify issues that
           remain high risk. Based on the assessment, we intend to review selected
           contractor performance issues.




                                             13
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL             PENSION BENEFIT GUARANTY CORPORATION

          PENSION LIABILITIES

          The primary areas of focus will include accuracy and timeliness of the pension
          liability components. The accuracy issue will address whether all components of
          the liability have been considered and whether factors used for each component
          are supported with sufficient detail and that data are correct. This area has
          been raised in earlier OIG and GAO reports and will be monitored to ensure
          progress is made and deficiencies overcome.

          With respect to timeliness, it is essential that PBGC calculate the amount due
          individual plan participants in a timely manner. This area has negative
          implications to both participants and PBGC, as pension benefit payments may
          be inaccurate until this process has been completed, and overpayments may
          become uncollectible.

          FY 1999 Activity.

          •   In August of 1997, the Honorable Charles Grassley, Chairman of the Special
              Committee on Aging of the United States Senate (Committee), asked the OIG
              to address certain questions regarding Initial Determination Letters (IDLs).
              Specifically, the Committee was concerned with the amount of time it takes
              PBGC to issue IDLs. The OIG was asked to conduct a multi-year review of
              PBGC’s IDL process to include the following;

              -   An evaluation of the efficiency and effectiveness of PBGC’s process to
                  issue IDLs (see OIG Report “Improvements Are Needed To Achieve Better
                  Efficiency And Effectiveness In PBGC’s Benefit Determination Process,”
                  99-2/23128-1);

              -   The length of time it takes PBGC to issue an IDL (see OIG Report “The
                  Length Of Time It Has Taken PBGC To Issue Initial Determination
                  Letters,” 99-3/23128-2);

              -   The effect of such delays upon individuals awaiting IDLs (see OIG Report
                  “Pension Plan Participants Impacted By Delays In Initial Determination
                  Letter Issuance,” 99-1/23128-3); and

              -   The number of appeals filed yearly, the number of appeals pending at the
                  end of each fiscal year and the number of appeals granted in favor of the
                  participant or upholding the PBGC’s initial determination (see OIG
                  Report “Audit Of PBGC's Response To Certain Questions Concerning
                  Appeals Of PBGC Initial Determinations Of Pension Benefits,” 98-
                  10/23131).

          •   The OIG completed a survey of the PRISM system to obtain a general
              understanding and to formulate a strategic audit approach. Using this
              survey information, we initiated a review that will evaluate the adequacy of
              controls associated with data conversion and integrity issues.

      •       As part of the financial statement audit, the OIG examined P B G C ’ s
              calculation of the present value of future benefits (PVFB) for terminated plans
              (see OIG Report 99-7/23132-2) which includes reviewing the components
              related to the PVFB. Our review disclosed that PBGC needs to improve
              controls surrounding the PRISM application. This is one of three reportable
              conditions presented in the report.




                                               14
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL          PENSION BENEFIT GUARANTY CORPORATION

      Projected FY 2000 Activity.

       •   We will update our review of the length of time that it takes PBGC to issue
           IDLs to participants in terminated plans by extending our scope through FY
           1999.

       •   We will review PBGC’s process for gathering and maintaining critical data to
           support participant benefits payments.

       •   During the audit of PBGC’s financial statements all components relating to
           pension liability will be reviewed.


       SYSTEMS INTEGRATION
       The Corporation has recognized problems in systems integration and responded
       with short and long-term solutions. Since a large portion of PBGC’s business is
       automated and depends upon the proper functioning of an integrated network of
       systems, the OIG will continue to maintain involvement in this area. Offering
       advice and technical assistance, the OIG will work with PBGC to help ensure an
       integrated network of systems is built, maximizing productivity while retaining
       sufficient controls to mitigate user risks. In addition, the OIG will be involved in
       interim reviews of the systems processes. The reviews will assess how the
       systems address the dynamic needs of the organization and whether the control
       structure is operating effectively.

       FY 1999 Activity.

       •   During the audit of PBGC’s financial statements, the PBGC’s financial
           management systems were reviewed (see OIG Report 98-3/23126-2). The
           report on internal controls noted that the financial systems lacked
           integration, a continuing reportable condition. We again found that PBGC
           did not meet the requirements of OMB Circular A-127 regarding an
           integrated financial management system. PBGC also lacked a formal
           Systems Development Life Cycle Methodology (SDLC) which impacted upon
           data conversion efforts, security administration, user acceptance testing,
           reports definition, and consistency of systems development initiatives. We
           also found that PBGC lacked specific criteria to adequately manage its
           systems development projects that are outsourced to external vendors. Lack
           of systems integration inhibits management’s ability to accumulate and
           summarize information required for management decision-making purposes.
           We also found that PBGC needs to improve controls surrounding the PRISM
           application. This is one of three reportable conditions presented in the
           report.

           In our companion report (see OIG Report 99-8/23132-3), we recommended
           improving controls over financial reporting; improving controls over the
           PRISM database application and updating the Corporation’s policies and
           procedures for this new application; and establishing a control environment
           that would improve the monitoring capabilities for segregation of duties.

       •   We are participating on a multi-departmental team to address PBGC’s
           compliance with Year 2000 issues.

       •   The Case Administration System (CAS) and the Integrated Present Value of
           Future Benefits System (IPVFB) are mission critical systems that support the
           calculation of PBGC’s PVFB liability. The OIG completed its survey of CAS




                                             15
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL         PENSION BENEFIT GUARANTY CORPORATION

           and IPVFB. The surveys filled a planning role for the OIG and documented
           an understanding of the design and operation of the two systems.

       Projected FY 2000 Activity.

       •   Further review of PBGC’s system integration issues.

       •   Initiate system reviews for the IPVFB and CAS focusing on internal control,
           data integrity and security issues.

       •   We will also continue to monitor Year 2000 issues during annual financial
           statement audits.



       INTEGRITY OF BENEFIT PAYMENT
       AND PREMIUM DATA
       The volume of the corporation’s benefit payment and premium collection
       systems makes these critical areas warranting continuous monitoring by PBGC.
       With benefit payments of more than $70 million per month, and contractors
       largely involved in the process, PBGC’s monitoring function must be able to
       examine payments on a global and individual basis.

       With respect to the premium collection system, PBGC’s monitoring process must
       be sufficient to ensure payment status is captured for all insured pension plans
       and premiums are paid in the proper amount. Periodic monitoring should be
       performed to test data submitted by insured plans and ensure adjustments are
       sought when necessary.

       FY 1999 Activity.

       •   During the audit of PBGC’s financial statements, PBGC’s Premium
           Accounting System (PAS) was reviewed (see OIG Report 99-7/23132-2). As
           discussed in our companion report (see OIG Report 99-821), we found that
           PBGC was using incorrect data in generating its premium receivable
           balance. With respect to PBGC’s Premium Compliance Review Program
           (PCR), we found that improvements were made in creating a clear audit trail
           for the tracking of PCR findings, settlements and collections to amounts in
           PAS. However, the amounts due PBGC were not posted in a timely manner.

       •   During the audit of PBGC’s financial statements (99-7/23132-2), we tested
           PBGC’s calculation of the present value of future benefits (PVFB) for
           terminated plans. Our audit identified areas where monitoring and
           information technology controls could be strengthened to reduce risks
           associated with the benefit payment process and participant record integrity.

       •   The OIG initiated reviews of network security and components of the PBGC
           information technology environment. These reviews focused on systems
           vulnerability, network security policies and procedures, physical security of
           network devices, Internet firewall and client server configurations. The
           reviews were in process at the end of the reporting period.




                                             16
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL         PENSION BENEFIT GUARANTY CORPORATION

       Projected FY 2000 Activity.

       •   We will complete our various reviews of network security and components of
           the PBGC technology environment and monitor PBGC implementation
           strategy.

       •   We will initiate a review of the Premium Accounting System.

       •   We plan to address broad-based data integrity issues and to continue our
           evaluation of automated premium accounting operations.



       ASSET MANAGEMENT

       With approximately $18.4 billion in assets, oversight over security and
       performance should be a continuous task. Many of these assets are managed
       by contractors and require an additional level of scrutiny concerning how and
       where they are invested, and whether performance is as expected. The
       Corporation needs to be proactive in establishing proper controls up-front, and
       then monitoring and reacting as necessary to variances that may occur.

       FY 1999 Activity.

       •   During the annual financial statements audit, selected investment managers
           and their investment performance were reviewed (see OIG Report, 99-
           7/23132-2). These reviews included the contractors’ internal controls as
           they related to implementing PBGC’s investment policies, completing
           securities transactions and investment manager performance.

       Projected FY 2000 Activity.

       •   During our audit of PBGC’s financial statements, we will continue to monitor
           PBGC’s management of assets.

       •   We plan to review the controls surrounding PBGC’s use of trust fund assets
           to reimburse the revolving fund for expenses related to the trust fund
           operation and management.

                                             *     *       *

       With an audit staff of six professionals and limited resources from contracts, it
       is not possible to address each of the above issues in their entirety during the
       fiscal year. Rather, we will cycle certain aspects of each area into our annual
       plans. In future periods, we will address other components in the same areas,
       thereby gaining entire coverage over time. The OIG risk areas will be reviewed
       annually to add significant risk functions as they are identified and delete areas
       where risk had been reduced to an acceptable level.

       It is the OIG’s goal to have sufficient investigation resources available to
       adequately handle our law enforcement responsibility. For FY 2000, along with
       our current investigative staffing level, we will use contractors as well as
       “borrowed” intra- and inter-agency resources to process our case workload. OIG
       staff will continue to participate on organizational teams designed to improve the
       overall effectiveness of PBGC and will strive to maintain our professional
       relationship with all levels of PBGC management. In addition, we will
       coordinate, when appropriate with our colleagues in the Department of Labor
       OIG to ensure full coverage in areas that bridge the two agencies.




                                             17
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                      PENSION BENEFIT GUARANTY CORPORATION

                                                 TABLE 5

                            CROSS-REFERENCE TO REPORTING
                      REQUIREMENTS OF THE INSPECTOR GENERAL ACT

The table below cross-references the reporting requirements prescribed by the Inspector
General Act of 1978, as amended, to the specific pages in the report where they are
addressed.



  Inspector General
    Act Reference      Reporting Requirements                                               Page


Section 4 (a) (2)      Review of legislation and regulations.                                11

Section 5 (a) (1)      Significant problems, abuses, and deficiencies.                     2 - 3,
                                                                                             9

Section 5 (a) (2)      Recommendations with respect to significant problems, abuses,       2 - 3,
                       and deficiencies.                                                     9

Section 5 (a) (3)      Prior significant recommendations on which corrective actions has     4
                       not been completed.

Section 5 (a) (4)      Matters referred to prosecutive authorities.                          10

Section 5 (a) (5)      Summary of instances where information was refused.                   4


Section 5 (a) (6)      List of audit reports by subject matter, showing dollar value of      5
                       questioned costs and funds put to better use.


Section 5 (a) (7)      Summary of each particularly significant report.                    2 - 3,
                                                                                             9

Section 5 (a) (8)      Statistical table showing number of reports and dollar value of       6
                       questioned costs.

Section 5 (a) (9)      Statistical table showing number of reports and dollar value of       7
                       recommendations that funds be put to better use.


Section 5 (a) (10)     Summary of each audit issued before this reporting period for        None
                       which no management decision was made by end of reporting
                       period.

Section 5 (a) (11)     Significant revised management decisions.                            None

Section 5 (a) (12)     Significant management decisions with which the Inspector             4
                       General disagrees.




                                                   18
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL             PENSION BENEFIT GUARANTY CORPORATION



GLOSSARY
The following defines the terms used in this report.


Questioned Cost        A cost the OIG has questioned because of an alleged
                       violation of law, regulations, contract, grant, cooperative
                       agreement, or other agreement or document governing the
                       expenditure of funds; such cost is not supported by
                       adequate documentation; or the expenditure of funds for the
                       intended purpose is unnecessary or unreasonable.

Unsupported Cost       A cost the OIG has questioned because of a lack of adequate
                       documentation at time of the audit.

Disallowed Cost        A questioned cost that management, in a management
                       decision, has sustained or agreed should not be charged to
                       the government.

Funds To Be Put To     Funds the OIG has identified in an audit recommendation
Better Use             that could be used more efficiently by reducing outlays,
                       deobligating program or operational funds, avoiding
                       unnecessary expenditures, or taking other efficiency
                       measures.

Management             Management's evaluation of audit findings and
Decision               recommendations and issuance of a final decision
                       concerning management's response to such findings and
                       recommendations.

Final Action           The completion of all management actions -- that are
                       described in a management decision -- with respect to audit
                       findings and recommendations. If management concluded
                       no actions were necessary, final action occurs when a
                       management decision is issued.


Misconduct             Action of employees or contractors that violates law, rules,
                       or regulations for which corrective action is warranted.




                                             19
IF   YOU WANT TO REPORT OR DISCUSS CONFIDEN-
TIALLY ANY INSTANCE OF MISCONDUCT, FRAUD,
WASTE, ABUSE, OR MISMANAGEMENT, PLEASE

CONTACT THE   OFFICE OF INSPECTOR GENERAL.


You can telephone:

        The Inspector General's HOTLINE

                1-800-303-9737


Or you can write:

     Pension Benefit Guaranty Corporation
          Office of Inspector General
                P.O. Box 34770
         Washington, D.C. 20043-4770
